<html>
<title> - THE VENEZUELA CRISIS: THE MALICIOUS INFLUENCE OF STATE AND CRIMINAL ACTORS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





  THE VENEZUELA CRISIS: THE MALICIOUS INFLUENCE OF STATE AND CRIMINAL 
                                 ACTORS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 13, 2017

                               __________

                           Serial No. 115-65

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                           U.S. GOVERNMENT PUBLISHING OFFICE 

26-838 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                               
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                 JEFF DUNCAN, South Carolina, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MO BROOKS, Alabama                   NORMA J. TORRES, California
RON DeSANTIS, Florida                ADRIANO ESPAILLAT, New York
TED S. YOHO, Florida                 GREGORY W. MEEKS, New York
FRANCIS ROONEY, Florida

























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Francisco Toro, executive editor, Caracas Chronicles.........     9
R. Evan Ellis, Ph.D., senior associate, Americas Program, Center 
  for Strategic and International Studies........................    15
Harold Trinkunas, Ph.D., senior research scholar and associate 
  director for research, Center for International Security and 
  Cooperation, Freeman Spogli Institute for International 
  Studies, Stanford University...................................    43

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Jeff Duncan, a Representative in Congress from the 
  State of South Carolina, and chairman, Subcommittee on the 
  Western Hemisphere: Prepared statement.........................     4
Mr. Francisco Toro: Prepared statement...........................    11
R. Evan Ellis, Ph.D.: Prepared statement.........................    17
Harold Trinkunas, Ph.D.: Prepared statement......................    46

                                APPENDIX

Hearing notice...................................................    72
Hearing minutes..................................................    73
Questions submitted for the record by the Honorable Jeff Duncan 
  and written responses from:
  Mr. Francisco Toro.............................................    74
  R. Evan Ellis, Ph.D............................................    76
  Harold Trinkunas, Ph.D.........................................    80
 
                  THE VENEZUELA CRISIS: THE MALICIOUS
                    INFLUENCE OF STATE AND CRIMINAL
                                ACTORS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 13, 2017

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:08 p.m., in 
room 2200, Rayburn House Office Building, Hon. Jeff Duncan 
(chairman of the subcommittee) presiding.
    Mr. Duncan. A quorum being present, the subcommittee will 
come to order. I now would like to recognize myself for an 
opening statement.
    Today in Venezuela there are over 600 political prisoners. 
The country is a failed state and a humanitarian disaster. 
Since April, more than 125 people have died, over 2,000 have 
been injured in protests at the hands of the Venezuelan 
Government. Food, medical supplies, and basic goods remain 
scarce. The legitimate democratically elected National Assembly 
has been silence in favor of a sham constituent assembly full 
of President Maduro's supporters. The previous attorney general 
has fled the country after publicly opposing Maduro's abuse of 
power.
    Today, Venezuela has entrenched itself as a dictatorship, 
unmoved by international condemnation and the pleas of its 
people. The political economic human rights crisis in the 
country is appalling for the 30 million citizens of Venezuela, 
and it threatens to destabilize the region.
    The United States has very clear interests in Venezuela. We 
want regional peace without masses of refugee flows or public 
health threats from rising cases of malaria, diptheria, or 
Zika. We want to see a democratic country that represents the 
rule of law and that is accountable to its people. We want to 
see a country that doesn't use its power to beat up, imprison, 
torture, and kill its own citizens.
    We want to ensure that Venezuela does not become a 
narcostate that provides safe harbor to terrorists or 
transnational criminals. We want a stable energy market that 
promotes energy security. We also want to certify that 
Venezuela does not become a pawn for Russia, China, or Iran to 
exploit for their own geopolitical purposes. And bottom line, 
we care about the Venezuelan people, and we want to see them 
prosper. Let me repeat that. We care about the Venezuelan 
people, and we want to see them prosper.
    To those ends, the U.S. Congress has issued public 
statements in past legislation calling for the Maduro 
government to return to a democratic order. This subcommittee 
has held four hearings on Venezuela over the past 2 years. 
President Trump has affirmed that Venezuela remains a U.S. 
priority, and his many efforts, combined with Vice President 
Pence's recent visit to the region, underscore U.S. solidarity 
with our partners in the region and with the Venezuelan people 
in our commitment to see the Venezuelan Government end this 
embrace of tyranny.
    I commend President Trumpand his administration for their 
efforts, and I want to underscore that we support further U.S. 
and international action to pressure the Maduro regime and to 
convince those who follow his leadership that they will not 
succeed in destroying the country.
    While the United States under President Trump's leadership 
has been unwavering in our support for the Venezuelan people, 
many other countries in Latin America, Europe, and Asia have 
also demonstrated courage and conviction in jointly condemning 
the breakdown of democratic order in Venezuela and in offering 
full support and recognition for the democratically elected 
National Assembly. I believe it is critical that we continue to 
speak and act together in our support for the Venezuelan 
people. Dialogue alone is fruitless without a series of 
preconditions that level the playing field for democratic 
actors and without corresponding simultaneous multilateral 
pressure. Therefore, I strongly urge other countries to 
continue their efforts to step up said pressure.
    Recently, I, along with the ranking member Sires, led a 
congressional delegation visit, which included Ms. Kelly and 
Mrs. Torres and Mr. Espaillat of this subcommittee, to the 
Dominican Republic, Haiti, Colombia, and Peru. In our meetings, 
we emphasized U.S. congressional commitment to supporting 
democracy, rule of law, and human rights in Venezuela and urge 
greater regional cooperation to call out the Maduro government 
for its reprehensible behavior against its own people and to 
pressure the Venezuelan Government to restore the country's 
democratic institutions. Decisions like Mercosur's suspension 
of Venezuela and recent Lima Declaration, which was signed by 
12 Latin American countries, are important steps in that 
direction.
    With that in mind, I strongly urge the European Union to 
enact sanctions on the Venezuelan dictatorship to cut off 
another important source of financing and ratchet up pressure 
on the Maduro regime.
    Yet regardless of any strong measure the U.S. or other 
countries in the Western Hemisphere and the European Union may 
take against the Maduro government, various state and criminal 
actors have undermined those measures' effectiveness and 
blunted our objectives. Cuba, China, Russia, and Iran are the 
underlying supporters of the Maduro regime.
    Beginning with the rise to power of Hugo Chavez, the Cuban 
dictatorship has exported his system of oppression to Venezuela 
under the guise of medical doctors and teachers. For their 
part, Russia and China have funded the expansion of Venezuela's 
military arsenal and invested heavily in Venezuela's corrupt 
state-owned oil company, PDVSA.
    Iran has attempted to strengthen economic and diplomatic 
ties with Venezuela through visits in 2016 by Iranian President 
and Foreign Minister. Multiple reports exist of Hezbollah's 
activities in the country. Just earlier this week, President 
Maduro met with President Rouhani to strengthen their 
cooperation.
    In addition, criminal organizations also operate in the 
country with unfettered access, fueling corruption, graft, and 
an increase in narcotrafficking and other illicit activities. A 
few years ago, U.S. Government drug trafficking maps showed 
virtually all suspected drug trafficking flights from South 
America originated in Venezuela. Today, we are seeing drugs 
from Venezuela entering neighboring countries as well as 
heading to the United States.
    Yesterday, the State Department affirmed that in Venezuela, 
drug trafficking organizations have completely penetrated 
virtually every security, law enforcement, and justice-related 
institution in the country. And any solution to the Venezuelan 
crisis requires a solution to the drug trafficking organization 
presence.
    In February 2017, the U.S. imposed sanctions on the 
Venezuelan Vice President, designating him as a drug kingpin, 
and revealed the Venezuelan Government's complicity in drug 
trafficking. Questions remain regarding the Venezuelan 
Government's ties to foreign terrorist groups and concerns 
about Russian and Chinese arms falling into the hands of these 
or other criminal actors.
    Today, we want to examine the role these actors play in 
sustaining the Venezuelan dictatorship and consider what might 
constitute an effective U.S. and international response.
    With that, I will turn to the ranking member for his 
opening remarks. And I look forward to hearing from our 
panelists today. I turn to the ranking member for his 
statement.
    [The prepared statement of Mr. Duncan follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
                              ----------                              

    Mr. Sires. Thank you, Chairman, and thank you for holding 
this timely hearing. Thank you to our witnesses for being here 
today.
    We have watched week after week Maduro continue to expand 
his authority at the expense of the Venezuelan people. Just 
last month, the National Constituent Assembly, the fraudulently 
elected puppet Congress orchestrated by Maduro, approved a 
Presidential decree giving itself authority to pass 
legislation, replacing the opposition dominated in legitimate 
elected National Assembly. Political prisoners continue to be 
kept under lock and key, while families are unable to access 
basic necessities such as food or lifesaving medicines.
    Despite all this, Venezuela continues to enjoy the support 
of some Latin American and Caribbean nations, in addition to 
others which help prop up the Maduro autocracy.
    When the Organization of the American States recently tried 
to press Maduro to take concrete steps to improve the human 
rights situation and restore democratic institutions, the 
resolution failed because a number of small countries abstained 
or voted against the measure. It is worth noting that 95 
percent of the Western Hemisphere lives in countries that have 
voted to strongly condemn the Maduro regime's actions. There is 
a consensus among the majority of the hemisphere, multilateral 
institutions such as the OAS, the United Nations and the 
European Union, that Maduro is destroying democracy and 
violating human rights.
    In order to reach a sustainable political situation, it is 
imperative that we work with our allies in the region and 
around the world to present a unified condemnation of Maduro's 
autocratic regime and fight together for a restoration of 
democracy for the Venezuelan people.
    I am encouraged that regional leaders in Brazil, Colombia, 
Peru, Canada, and many others are criticizing Maduro for this 
gross abuse of human rights, and hope that more will join their 
neighbors in calling for a resolution to this crisis and 
productive engagement with the opposition.
    Maduro's descent into authoritarianism has not only 
jeopardized the lives of innocent Venezuelans; it has also 
created an environment ripe for dangerous foreign influence 
from countries such as Iran, Russia, China, and Cuba.
    The State Department has already noted that Venezuela is 
home to several individuals linked to designated foreign 
terrorist organizations, including Hezbollah. As a continued 
sponsor of terrorism, Iran's interest in Venezuela should be a 
concern to the Western Hemisphere. As Cuba continues to imbed 
itself deep within the Venezuela security network, Chinese and 
Russian presence in the country's economic activities provide 
new opportunities for influence within the region.
    I believe that it will take a coordinated effort amongst 
the Western Hemisphere nations to present a viable solution to 
the ongoing crisis in Venezuela. I am hopeful that more 
regional partners will come forward in denouncing the Maduro 
regime.
    I am eager to hear how our panelists view the role that 
external actors play into the gang situation in Venezuela and 
look forward to their recommendations as we continue to grapple 
with this complex issue. Thank you.
    Mr. Duncan. Thank you, Ranking Member Sires.
    The Chair will now go to Mr. DeSantis for an opening 
statement.
    Mr. DeSantis. Well, Mr. Chairman, thank you for having the 
hearing and your attention to this issue. It is very important.
    The more and more we have seen the Venezuela piece, the 
more and more we can say that the Obama administration deal 
with Cuba has been a total failure, because Cuba and the Cuban 
military are driving a lot of the bad things that are happening 
in Venezuela right now. And, of course, we have these reports 
of diplomats being harmed in Havana. We still don't have all 
the facts on that, but I don't know how you can spin that as 
anything other than an attack. The evidence is just too 
overwhelming.
    So we obviously need to hold Maduro accountable, but we 
need to hold the Cuban Government accountable too, because they 
are the root of a lot of these problems. I yield back.
    Mr. Duncan. I thank the gentleman.
    No other members have opening statements.
    So before I recognize the panelists, you will notice a 
lighting system in front of you. Five minutes is what you will 
be recognized for. When it starts to get down to a minute, the 
yellow light will come on. And when you run out of time, it 
will be red. If you could acknowledge that and start wrapping 
up your statement, it will help us stay on time.
    Members, all the bios for the witnesses are in your binders 
and provided earlier, so I am not going to read those. And once 
the witnesses offer testimony, all three, we will go into the 
question-and-answer portion of it, and each member will be 
recognized for 5 minutes.
    So I will start with Mr. Toro. You are recognized for 5 
minutes.

  STATEMENT OF MR. FRANCISCO TORO, EXECUTIVE EDITOR, CARACAS 
                           CHRONICLES

    Mr. Toro. Okay. Thank you so much, Chairman Duncan.
    I wanted to focus today on the role of Cuba. I think when 
we talk about foreign influence in Venezuela, it is really Cuba 
and then everyone else. The influence of Cuba has been so 
overwhelming.
    On Sunday, October 14, in 2007, then President Chavez made 
a startling statement during his famous Alo Presidente show, 
which was broadcast from Santa Clara in Cuba then. He was 
addressing Fidel Castro directly across from him when he said, 
``Deep down, yes, we are just one single government. Venezuela 
has two Presidents, but we are one single government. We are 
advancing toward a confederation of republics.''
    Now, that is obviously a bit of overstatement. They are 
separate governments and separate juridical traditions, et 
cetera, but the ambition that Chavez and Fidel Castro had was 
something beyond the normal alliance, and we have seen it play 
out in over the last 10 years in really nefarious ways.
    And it is important to understand that Venezuela always had 
four traditional service branches in the armed forces: The 
army, navy, air force, and the national guard, which is like a 
military police. But on Cuban advice, in 2005, a fifth service 
branch was added called the Milicia Bolivariana, the Bolivarian 
militia, which was an avowedly political arm of the ruling 
party organized, trained, and armed as a military force. Okay.
    The Bolivarian militia has been derided over the years as 
sort of a grannies army, that they don't seem to be much of a 
fighting force, but there are hundreds of thousands of 
terrorista political activists under arms. And we have seen 
this, and in the last couple of years, the Bolivarian militia 
has become more powerful. President Maduro has made a 
calculated decision to strengthen the Bolivarian militia.
    And what is really concerning about this, and what I think 
the committee should really sink its teeth into here, is that 
there have already been a series of leakages of weapons from 
the Venezuelan military to nonstate actors. Okay?
    So we have seen criminal bans in Venezuela that are 
dedicated to extortion, drug trafficking, but local drug 
trafficking, buying weapons, buying assault rifles, buying C-4 
plastic explosives from the military. And we see the Venezuelan 
military getting more and more powerful weapons under its 
control.
    Now, early last year, it was reported--Reuters reported 
that Venezuela had acquired over 5,000 surface-to-air shoulder-
mounted MANPADS missiles, heat-seeking missiles that a single 
person could shoot. Those have been under the control of the 
Army for the last several years, since they were bought.
    We understand that as many as 1,000 of those MANPADS 
systems could be transferred to the Bolivarian militia in the 
coming weeks. And while the ARMY has leaky ways of keeping 
track of its stock of weapons, the militia has no system that 
we know of to log these weapons.
    So while weapons have been subtracted from the Venezuelan 
army for sale to criminal networks, the Venezuelan army, at 
least in the Venezuelan security forces know that and have a 
way of tracking it. Once hundreds or perhaps as many as 1,000 
MANPADS are transferred to the control of the militia, you can 
kiss them good-bye. There is no more tracking them.
    A few weeks ago, when there was some tension with the 
United States following President Trump's declaration, it was 
very clear that the militia was given assault rifles to take 
home. There is a question, are we looking at a scenario here 
where Venezuelan military could be handing political activists 
surface-to-air missiles, heat-seeking missiles that can bring 
down an airliner at 20,000 feet to take home?
    You have to understand that many of the Bolivarian militia 
members are rank-and-file Chavista activists. These are people 
who are often hungry, penniless and hungry. So we would be 
looking, then, really at a buyers market for these 
extraordinarily dangerous weapons. And that is a debate that I 
don't see happening anywhere, really, and that I think that 
should change.
    [The prepared statement of Mr. Toro follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ----------                              

    Mr. Duncan. Thank you for that. I am sure members will like 
to delve more into that.
    Now we will go to Dr. Ellis for 5 minutes.

 STATEMENT OF R. EVAN ELLIS, PH.D., SENIOR ASSOCIATE, AMERICAS 
    PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Ellis. Thank you, Chairman Duncan.
    Chairman Duncan, Ranking Member Sires, distinguished 
committee members, thank you for the opportunity to share my 
analysis with you today. I will summarize what are my written 
remarks for the committee and would emphasize that these are 
strictly my own opinions and not those of my employer.
    I would like to emphasize how both Russia and China, in a 
pursuit of their commercial and strategic interests in 
Venezuela, have provided capital, goods, services, and 
political backing that has indirectly enabled the populist 
regime to ignore and ultimately destroy, as you alluded to, the 
mechanisms of democratic accountability.
    Between Russia and China, the PRC, in my judgement, holds 
the greatest leverage over the fate of Venezuela, with the 
control of financial instruments and loan-funded projects, as 
well as flows of goods important to the regime's survival.
    First, the PRC has become Venezuela's principal banker, 
with PDVSA moving current accounts from Portugal's Banco 
Espirito Santo to China's CITC Bank in August 2014. Venezuela 
has also stored a portion of its gold reserves in China. Both 
actions potentially protect Venezuela's assets partially from 
international legal claims. However, they also give China 
influence over Venezuela in how it responds to such claims.
    Also, the PRC is Venezuela's major source of credit, as is 
widely known, having extended an estimated $62.2 billion to the 
regime since 2005 in the form of revolving credit relationships 
repaid by shipments of Venezuelan oil.
    As the majority of international companies have withdrawn 
from Venezuela, the work performed by Chinese entities funded 
by such credit has become increasingly critical for building 
and maintaining the oil, electricity, and transportation 
infrastructure to get Venezuela's oil to market.
    Indeed, just days ago, the China-Venezuela High-Level Mixed 
Commission met and authorized an additional $2.7 billion in 
such new projects, including the construction of the Jieyang 
refinery in China to process Venezuelan heavy oil. China has 
further provided Venezuela with billions of dollars of military 
goods on credit, displacing Russia as Venezuela's principal 
arms supplier. Systems sold, just to name a few, include JYL-1 
radars, K-8 fighter trainers, Y-8 and Y-12 transport aircraft, 
SM-4 self-propelled mortars, SP-5 multiple rocket launchers, 
VN-1, VN-18, and CS/VP-4 armored combat vehicles, CS/LMG heavy 
machine guns, plus antisubmarine and antitank weapons, which 
are, frankly, concern for neighboring Colombia if war should 
ever break out between the two.
    In addition, Chinese arms also include VN-4 armored cars 
and VN-16 light tanks, which have been very publicly used by 
the Venezuela national guard to suppress antiregime 
demonstrations in recent weeks.
    Russia. Russia's activities in Venezuela have been more 
limited than those of the PRC, yet are still significant. 
Russia has sold over $11 billion of military hardware to 
Venezuela since 2006, including 10 Mi-35 attack helicopters, 38 
Mi-17 transports, 3 Mi-26 heavy transports, 24 Su-30 fighter 
aircraft, 100,000 Kalashnikov rifles, 92 T-72 tanks, and 
approximately 200 BMP-3 and BTR-80 armored personnel carriers.
    Russia has also sold, as my colleague rightly alluded to, 
between 2,000 and 5,000 Igla-S anti-aircraft missiles, which 
also I would agree with my colleague could gravely threaten 
civil aviation were they to fall into the hands of terrorists.
    Russia has also used its relationship with Venezuela to 
project a military force into the region. Examples include the 
deployment of two nuclear capable Tu-160 backfire bombers in 
2008, later a flotilla of warships the same year into 
Venezuela, and another deployment of Tu-160s to Venezuela in 
October 2013, and farther, the second sending of warships to 
Venezuela in March 2015 to conduct exercises.
    With respect to commercial support, the Russian state-owned 
company, Rosneft, has been a key financier for the Venezuelan 
oil sector, providing an estimated $17 billion since 2008. 
Indeed, as the liquidity crisis in Venezuela has deepened, 
Rosneft has provided an additional $6 billion in loans to PDVSA 
for future delivery of oil, in addition to the $1.5 billion 
that it loaned in December 2016 in exchange for the 49 percent 
interest in the PDVSA subsidiary, CITGO.
    In formulating the U.S. whole-of-government strategy to 
restore democratic governance to Venezuela, and I also would 
commend the administration's efforts in that, I believe that 
the U.S. must structure its sanctions and other actions and 
strategic communication with an eye to convincing Russia and 
China that their continued support for Venezuela's anti-U.S. 
authoritarian regime will not get those countries to a stable, 
internationally accepted successor, which would legalize and 
make sustainable the deals that they have struck with those who 
hijack the Venezuelan state and its resources.
    While sanctions should be imposed, in my judgment, broadly 
and not only against U.S. purchases of Venezuelan petroleum, 
but also at the regime's access to the international financial 
system. In that, I concur with your remarks about Europe, Mr. 
Chairman.
    While this course of action is harsh, I believe that it is 
the best among imperfect options, short of military 
intervention, to bring about change that most rapidly ends the 
suffering of the Venezuelan people, and with that same 
rapidity, would deny Russia and China time to advance their 
position in the country through their own incremental deals 
which continue to prop up the regime.
    Thank you, Mr. Chairman. Thank you.
    [The prepared statement of Mr. Ellis follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
                              ----------                              

    Mr. Duncan. Thank you for your testimony.
    The Chair will now go to Dr. Trinkunas. Did I pronounce 
that correct?

 STATEMENT OF HAROLD TRINKUNAS, PH.D., SENIOR RESEARCH SCHOLAR 
 AND ASSOCIATE DIRECTOR FOR RESEARCH, CENTER FOR INTERNATIONAL 
    SECURITY AND COOPERATION, FREEMAN SPOGLI INSTITUTE FOR 
           INTERNATIONAL STUDIES, STANFORD UNIVERSITY

    Mr. Trinkunas. Yes. Yes, you did, Mr. Chairman.
    Chairman Duncan, Ranking Member Sires, members of the 
subcommittee, it really is an honor to be here today to discuss 
the negative influence of external actors in the crisis in 
Venezuela. I am providing this testimony in my private capacity 
as an expert on Venezuela, its politics, and its foreign 
policy.
    Mr. Chairman, Ranking Member Sires, I concur with your 
assessment of both the situation in Venezuela and U.S. 
interests at stake here, so I will not dwell on those further.
    In my written testimony, which I am summarizing here today, 
I focus on the role of China, Cuba, Russia, Iran, and illicit 
nonstate actors in Venezuela. I am happy to go into further 
detail on those in the Q&A, but I would like to make some broad 
remarks here before we go into specifics.
    The first thing I will say is that each of these actors in 
Venezuela plays a slightly different role, of course, as I 
detail in my testimony. But the important thing to note is they 
are all in Venezuela at the invitation of Hugo Chavez as part 
of his governing strategy back in the day before he was 
deceased. Chavez's plan was to use these actors to increase 
Venezuela's capabilities and to resist U.S. influence.
    The thing to keep in mind is when oil was at $120 a barrel, 
Chavez had the upper hand. Now that oil is at a third to half 
of that, it is Maduro's aspiration that really makes Venezuela 
vulnerable.
    I would like to make four main points at this time about 
the negative role of external actors in Venezuela. I concur 
with you that these actors are principally enablers. They 
basically provide capabilities to the Venezuelan regime that 
allow them to pursue catastrophic policies for longer and at 
less cost to the regime than would otherwise be possible.
    The second thing is that the Castro-Chavez policies we now 
observe in place in Venezuela are primarily designed to benefit 
President Maduro and his allies. We should not assume that they 
are the result the ignorance or external influence. They are 
very much designed to support the regime's coalition, transfer 
public resources into private pockets, and, in fact, this is 
involvement in corruption, some officials are linked to drug 
trafficking, some now are linked to human rights abuses, that 
these actors cannot afford a transition back to democracy. They 
fear being held accountable.
    That said, I do think that at this point in time, and here 
I am focused principally on how these actors can keep the 
present regime in power. Their primary motivation for working 
with the Maduro government is economic. They want to secure the 
biggest possible return on their investments for interacting 
with the Venezuelan regime. Of course, geopolitical interests, 
ideological interests, may derive welcome benefits from that 
participation of Venezuela, but that is relatively secondary to 
their economic motivation.
    With that said, I concur with Dr. Ellis that there may be 
some opportunities there in the sense that they may fear that 
these deals that they are making now may be invalidated in the 
future.
    Finally, I would say that not all of these external actors 
have an equally negative role. I think that if you look at 
China's involvement over time, they have become more skeptical 
of the Venezuelan regime. They are more concerned about its 
ability to pay back the existing loans. They are somewhat 
disenchanted, as opposed to let's say the case of Russia, which 
I really do think is playing a very opportunistic role these 
days, picking up Venezuela's oil assets for pennies on the 
dollar. There may be an opportunity there that the United 
States should be exploring.
    The final thing I would say is that I concur with you and 
with the ranking member that we are seeing the most positive 
external environment for international collaboration to address 
the crisis in Venezuela since President Maduro took office, a 
decided shift against the Maduro regime, not just in Latin 
America, but also increasingly in Europe, and that is something 
the United States, I agree with you, should capitalize on.
    That said, I am skeptical that there are solutions in the 
short and medium term to the crisis in Venezuela, and that 
guides a set of recommendations that I would like to make now.
    The first is, I do think it is time to begin serious 
contingency planning to address a full-scale humanitarian 
crisis in Venezuela. This means collaborating with efforts 
already underway in Colombia and Brazil to deal with Venezuelan 
economic and political refugees. It means shoring up the 
efforts of small island states in the Caribbean, which have 
already been badly affected by the recent hurricanes. It means 
increasing monetary assistance to credible civil society 
organizations that can actually get food and medicines to 
Venezuelans, maybe initially just on the border, but there may 
be other opportunities.
    And finally, I would say that we should talk to the states, 
including the ones that have a negative influence, who have 
significant personnel present in Venezuela, the Chinese, the 
Cubans to understand exactly what the limits of their support 
are. Are they willing to support at all costs, no matter what, 
or is there some room short of that that could be explored?
    Second, deepen, accelerate strategic engagement programs in 
the Caribbean. I commend the subcommittee's work on that. I 
know you have been doing important work in that area. The time 
after these hurricanes is, I think, an important time to 
capitalize on that forward-leaning effort that this 
subcommittee has supported.
    I concur with you on the need to build on the international 
consensus. Any U.S. diplomacy is magnified if we work with our 
partners in the region.
    And finally, I would consider targeted sanctions against 
individuals and businesses that are enabling the Maduro regime. 
The Maduro regime is enabling external actors that have not 
paid much cost for supporting Venezuela so far, and individual 
sanctions and sanctions against businesses might produce less 
of a diplomatic blowback than general sanctions.
    I conclude my remarks there.
    [The prepared statement of Mr. Trinkunas follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                              ----------                              

    Mr. Duncan. I thank all of our panelists, and great 
testimony.
    Dr. Ellis, the deteriorating economic situation in 
Venezuela makes investment in the country increasingly risky 
for anybody, especially as Venezuelan oil production continues 
to decline. In your opinion, why is Russia willing to take 
these risks?
    Mr. Ellis. Thank you, Chairman Duncan. I believe that 
Russia itself is not the one taking the risk, but rather, 
specific Russian companies, Igor Sechin with Rosneft, 
presumably with the backing of Vladimir Putin.
    I believe, frankly, that in addition to the economic 
interest, both Russia and China have a long-term strategic 
interest in having a relatively anti-U.S. actor close to U.S. 
shores that grants them privilege access, not only to the arms 
market and the oil market, but other markets as well. And so to 
the extent that it is in both of those countries' interest to 
sustain that, you know, the small amount of capital, 
relatively, that is being invested is a minor price to pay, in 
my judgment.
    Mr. Duncan. One thing I have always thought about is, I 
mean, Russia is a gas station masquerading as a country. They 
don't need the oil. It is not about that geopolitical dynamic 
of a natural resource.
    So with their investment in PDVSA, if Venezuela defaults on 
the loans, then, basically, Rosneft will have controlling 
interest, or 49 percent interest in CITGO. What does that mean?
    Mr. Ellis. That is an excellent question, Mr. Chairman. I 
believe this illustrates an opportunity in part of the Russian 
strategy. I think in many ways, Russia became somewhat careless 
as it advanced the last $6 billion in advance loan payment. And 
I think at the point in which they put in the money for CITGO, 
what they failed to understand was that, you know, the degree 
to which, for example, with CFIUS review, that their ability to 
actually take control over CITGO holdings in the U.S. could 
actually be denied.
    So I think Russia finds itself in a difficult position, and 
indeed, public information indicates they are currently 
negotiating actually to swap the access to CITGO for 
potentially other assets, which might include Petropiar, which 
might include expanded access to Petromonagas and others, which 
really goes to Russia's farther strategy, in my judgment, which 
is to use Venezuela's time of need, not only to sustain the 
regime, but to broaden the holdings that they have to 
Venezuela's 300 billion barrels of oil.
    And I think their calculations really come down to whether 
they think, at the end of the day, I believe that Russia and 
China as much as everyone else wants to transition away from 
the Maduro regime. But what they want to transition to is very 
different. I believe that they are hoping that they can get a 
transition to an equally anti-U.S. authoritarian regime that 
will let them legally legitimize their holdings. And so to the 
extent that they believe that they can get that and not be 
forced to cooperate with the United States toward a more 
democratic regime, I think they will still continue to play 
this game to fund the regime as they have.
    Mr. Duncan. So you mentioned a lot of the weapons. Is there 
any possibility those weapons could fall in the hands of the 
criminal element or the narcoterrorists at all?
    Mr. Ellis. They already have, Mr. Chairman. Especially with 
respect to small arms. I mean, everything from----
    Mr. Duncan. Beyond small arms. I am talking about some of 
the larger, more capable weapons that you mentioned.
    Mr. Ellis. Indeed, as my colleague Mr. Toro also mentioned, 
one of the particular concerns are the Igla-S anti-aircraft 
munitions, which, especially to the extent that they are 
transferred away from the regular Army, there is the 
opportunity for those to begin to be sold to other people.
    So it is certainly that, especially as there is a 
deterioration in order. And what is particularly concerning not 
only is the black market sales, but if there is a collapse of 
order, a split in the military as part of a succession crisis, 
that becomes one of the moments in which those type of arms 
could begin to even more rapidly disappear into other hands.
    Mr. Duncan. My time has expired. I will turn to the ranking 
member.
    Mr. Sires. Thank you, Chairman.
    You know, as I look at Venezuela, I see the same game plan 
that was implemented in Cuba. First of all, in Cuba, they 
started out with the Communist assembly. In Venezuela, it is 
called the National Constituent Assembly. Basically, that is to 
take away power from any kind of democratic effort to put it in 
the hands of these groups.
    The second step is, basically, to eliminate the opposition. 
They eliminated the opposition in Cuba. They eliminated the 
opposition, putting them in jail in Venezuela.
    And the third thing is this whole structure of committees 
that they are setting up throughout the country, where the 
committees basically tell on the activity of the public, you 
know, what the people are doing, and then they can go and put 
them in jail.
    So I see the same formula, actually, being implemented in 
Venezuela. Now, what can we do about it? I think we pretty much 
have to depend on all the other countries around Venezuela to 
continue to put the pressure and prohibit them from using the 
World Bank and so forth. But I think other than that, we are 
kind of limited on what we can do, you know, in the country. So 
would you agree with that?
    Mr. Ellis. First of all, Mr. Chairman, I would thoroughly 
agree. Clearly, not only Hugo Chavez, as my colleagues alluded 
to, but continuing with Nicolas Maduro, who have continued not 
only to follow the Cuban playbook, but indeed, have received 
the benefit of their consultation as well as the active 
presence of the Cuban DGI, the Avispas Negras, and various 
other organizations to include those introduced through the 
doctors. And so if it looks like Cuba, that is not entirely by 
coincidence.
    But beyond that, I actually believe that we are at a unique 
moment where, although oftentimes sanctions are not effective, 
sanctions may have a particular opportunity to be effective in 
this case, specifically because PDVSA is at the brink of a 
cascading liquidity crisis.
    You have a series of events, whereby which, for example, 
certain bond payments, the $3 billion that are due in October, 
that if PDVSA goes into technical default, you have a situation 
where the creditors, including of course, Rosneft that you 
alluded to, and the other PDVSA creditors from the bond from 
last year, as well as other international claimants such as 
Crystallex and others, all begin to jump on international 
assets, which effectively shuts down the regime.
    I fundamentally believe that there is some point at which, 
if the money flow that accounts for 96 percent of Venezuela's 
ability to import the food and medicine it needs for its people 
is effectively shut down through that international legal 
battle, you do force a situation in which you may have regime 
change. And the way that we structure sanctions may impact how 
that comes about.
    Mr. Sires. Mr. Toro?
    Mr. Toro. I think it is important to understand that the 
U.S. has a lot of leverage. The United States buys 720,000 
barrels a day from Venezuela. I read in the Washington Post 
last month that there is scope for creativity here if people 
are willing to explore it. It is nowhere written that the 
United States has to buy this oil. And if it does buy it, you 
could think creatively about conditioning payments to some kind 
of mechanism where the National Assembly, the duly-elected 
National Assembly in Caracas approves the use of those 
payments. You could think of escrow systems. You could think of 
different ways of leveraging the fact that, yes, the United 
States needs this oil. Yes, Venezuela needs to sell this oil, 
but not under just any old conditions.
    Mr. Trinkunas. Thank you, Ranking Member Sires. I concur 
with you that collaboration from the countries in the region is 
important. We know from sanctions that they are more effective 
the more that the key parties are present. I also think there 
is an opportunity to put pressure on individuals and businesses 
that facilitate and serve as fronts for the officials in the 
Venezuelan Government that have engaged in corruption or 
benefit from drug trafficking. Cooperation with regional 
financial centers, especially in places like Panama would be 
important. So I do think there is room for creativity both in 
the kinds of sanctions and then how the earnings of Venezuela--
--
    Mr. Sires. In terms of the game plan that I described at 
the beginning of my comments, do you agree with that? Do you 
see similarities?
    Mr. Trinkunas. To----
    Mr. Sires. To the Cuban game plan.
    Mr. Trinkunas. I do think that there is a similar level of 
effort to achieve authoritarian control. I do see a lot of 
similarities also to what Hugo Chavez did in 1999. It is just 
when Hugo Chavez shut down the Congress and the Supreme Court 
in 1999, it was popular, and now it is not popular. So I don't 
let the Venezuelans off the hook, sir.
    Mr. Sires. Mr. Toro, do you agree with that game plan that 
they are implementing?
    Mr. Toro. Absolutely. The difference is that in Cuba in the 
late 1950s and 1960s, they had firing squads, and so things 
went much more quickly. If you are trying to do the same thing, 
but you are not going to have firing squads, it is going to 
take you 17 years or 18 years instead of 6 months or a couple 
of years. But you see the procession.
    And Venezuela now is at a very peculiar point in its 
history in that it still has an organized independent political 
opposition hanging on just barely in the Mesa de la Unidad 
Democratica, in MUD. They are trying to figure out ways to stay 
relevant and to stay united and to stay cohesive and to stay 
effective under a lot of pressure.
    It is not a given that Venezuela will always have that kind 
of opposition. Venezuela could end up just like Cuba with only 
dissidents and not an organized----
    Mr. Sires. My time just ran out, but I do think that 
Venezuela is going to move on private property in the next 
year.
    Thank you, Chairman.
    Mr. Duncan. I thank the ranking member.
    Now we will go to Mr. DeSantis from Florida.
    Mr. DeSantis. I thank the witnesses.
    And just following up on the Cuba stuff. How do the Cuban 
military officers and soldiers exert power and influence over 
the Venezuelan military government? Doctor?
    Mr. Trinkunas. So Venezuela invited in 40,000 Cuban 
personnel during the Chavez regime. Most of those were doctors, 
but a significant number were intelligence officers and 
military advisers. The most important role that they play is 
really as spies on the activities of the Venezuelan officer 
corps. It makes it very difficult for anybody in the Venezuelan 
officer corps to remain independent or nonideological or 
nonsupportive of the regime. So they have also taught the 
Venezuelans themselves how to conduct surveillance of their own 
officers. So it is really in support of maintaining regime 
control that they play a role.
    Mr. DeSantis. You want to----
    Mr. Toro. I think it is important to understand also that I 
think if we go back 5 years, that was very much the case. You 
had Cuban military personnel, spies, pretty much in every 
Venezuelan army unit. And in the last 3 years, that has changed 
a little bit, because that was generating a lot of resentment 
inside the Venezuelan military. It is humiliating to be spied 
on openly by foreigners.
    So in the last 3 years, what we have seen there is a move 
away from this unit-by-unit surveillance. And the way I put it 
in my written statement is the Cubans used to be everywhere, 
now they are just at the top. So you have, in Miraflores in the 
Presidential palace in Caracas, you have the situation room 
where intelligence gathered mostly by Venezuela, it is a little 
bit by Cubans, is funneled and analyzed and fed to the top 
leadership, really by Cubans. So they have become a kind of 
mechanism for dictatorship, if you want to put it that way. 
They are playing a consultancy role, but a very high-level 
consultancy role. High-level decisions are never made without 
asking the Cubans for advice first, and Venezuelan high regime 
officials are traveling back and forth to Havana all the time.
    Mr. DeSantis. So the Cuban military officials and 
intelligence officials, are they shaping the oppression of the 
Venezuela people and the opposition?
    Mr. Toro. Very clearly.
    Mr. DeSantis. And what specifically do they do to do that?
    Mr. Toro. Well, it is just day-to-day management of the 
political crisis. It has taken a lot to break the Venezuelan 
opposition to set it against the various groups against one 
another. It has taken a lot to identify the fracture points 
inside the Venezuelan opposition and play on those.
    If you read Venezuelan news over the last couple of days, 
we have one part of the opposition now at semi-open warfare 
with another part. That is not casual. That is the result of a 
Cuban strategy to sow divisions in a very canny kind of way. 
Because we know that to the degree that the Venezuelan 
opposition splits, it becomes harder for people like you to put 
pressure--for the United States to put pressure, because, you 
know, if half the Venezuelan opposition is accepting the 
National Constituent Assembly, how exactly does the Lima group 
or the United States or anyone else get off saying, no, this is 
an illegitimate assembly?
    So I think the Cubans are very good at this kind of work, 
understand it very well, and have in Nicolas Maduro a real 
hardliner, I mean, a man whose entire political vision was 
built in Cuba.
    Mr. DeSantis. So if you did not have any of this Cuban 
influence and Cuban support, what would that mean for the 
viability of the Maduro regime?
    Mr. Toro. I think to some extent, because Maduro and the 
inner clique around Maduro, they came up through the Liga 
Socialista, this Cuban satellite party in Venezuela in the 
1970s, but they thought like Cubans. They have been trained to 
think like--Maduro never went to university, but he did go to 
the school of international cadres in Havana for a year between 
1996 and 1997. That was his university. So he thinks like a 
Cuban Communist. The inner clique around him thinks like Cuban 
Communists. And in a way, you know, the Cuban vice has been 
embedded in the way that the Venezuelan security services do 
their work and certainly in the way that the leadership clique 
thinks.
    Mr. Trinkunas. I would just add that, basically, the Cubans 
enable President Maduroand his supporters to do what they want 
to do sort of faster or better or more effectively. But, 
basically, I agree with Mr. Toro, that this is their preferred 
course of action. It is not being forced upon them.
    Mr. DeSantis. But it makes their course of action more 
viable against opposition because of the Cuban support.
    Mr. Trinkunas. Correct. And, in fact, right now, they are 
engaged in the strategy of shaping the opposition. It is an 
opposition that they can easily manage by pruning off the parts 
they don't want to deal with.
    Mr. DeSantis. Great. Well, I thank you, thank the 
witnesses. And I yield back.
    Mr. Duncan. Dr. Ellis, do you want to chime in on that?
    Mr. Ellis. Yes. I just want to say very briefly that, in my 
judgment, that the Cubans are only able to imperfectly 
compensate for the bad management of Maduro team. But at the 
tactical level what becomes critical as the crisis deepens is 
the DGI and others who are monitoring whether or not there is a 
fracture in the military. Because I think with that, that 
element of the support, basically, a collapse can occur more 
readily with respect to the military split, it is a vehicle for 
ending the regime.
    Mr. Duncan. Thank you.
    The Chair now will go to Ms. Kelly from Illinois.
    Ms. Kelly. Thank you, Mr. Chairman.
    While the U.S. has taken action to sanction individuals 
profiting from the Maduro regime, other nations like China and 
Russia have enabled Venezuelans actions. Venezuela is accounted 
for 44 percent of total lending by Chinese banks in the region. 
For Russia, Venezuela has been a major market for Russian 
sales, armed sales with over $11 billion in sales since 2001.
    Mr. Trinkunas, you stated that most outside actors that 
trade with Venezuela do so to secure the biggest possible 
return. As the economic outlook deteriorates in Venezuela, do 
you expect outside countries to have more interests to exploit 
a weak state or fear of possible default? And are there any 
indications that China would inject capital into Venezuela to 
keep the Communist (ph) government informed?
    Mr. Trinkunas. That is a very good question, Congresswoman 
Kelly. And I believe there is a difference between China and 
Russian on this. I think China has become more reticent in 
recent years. They are still providing some level of support. 
They are not willing to totally completely cut and run, because 
they are concerned about how that would be viewed by other 
potential and existing partners around the world. They think of 
themselves as a rising global power, and they know what they do 
in Venezuela will affect their relations with other countries. 
So they are reluctant to invest more money, but they don't want 
to completely leave.
    On the other hand, Russia, and specifically Rosneft, have 
been behaving very opportunistically this year in terms of 
acquiring stakes in joint ventures in Venezuela, as Dr. Ellis 
and Mr. Toro explained. The one thing to understand about the 
Constituent National Assembly, in addition to supporting the 
completion of authoritarianism in Venezuela, it is a vehicle by 
which the Maduro regime can try to provide some legal cover for 
what the Russians, for example, are doing in Venezuela.
    Mr. Ellis. If I could jump in, ma'am. I also believe that 
China is now continuing to inject capital. The idea that 
although China has become more cautious and has not extended 
new loan vehicles; however, it is interesting the current $2.7 
billion in new projects that was just authorized last week 
actually is basically money that was paid down out of one of 
the existing tranches of one of the heavy investment fund. And 
so China is proceeding cautiously.
    But I also believe that because the majority of those $62.2 
billion that were lent was actually lent on generally 3-year 
repayment terms and largely on a--you know, repaid out of 
China--out of Venezuelan oil deliveries, that China is not as 
worried about losing money as many think. As a matter of fact, 
the amount that could be still owed to Venezuela may be--or to 
China may be as low as $15 billion. And when you consider the 
China investment corporation itself has a $900 billion loan 
portfolio. For China, you know, taking a loss on $15 billion, 
which is actually only half of the loans that Russia took as a 
write-down when it wanted to reestablish its own relationships 
with Cuba.
    So my suspicion is that China is continuing to support the 
regime; it is just doing so in a less overt way than people 
like Igor Sechin are on the Russian side.
    Mr. Toro. We should note that as far as we know, Simon 
Zerpa, the PDVSA vice president for finance who was named as 
part of the latest round of OPEC sanctions, is in Beijing now 
and has been for a couple of weeks negotiating a--trying to 
negotiate some kind of support deal. The--Beijing is--
obviously, it is difficult to get information out. It is hard 
to know if it is going well or not. We will have much better 
answers to the question when Mr. Zerpa comes back.
    But it should be noted that sanctions, individual sanctions 
against Simon Zerpa and against the national treasurer, Erick 
Malpica Flores, the first lady's nephew also, have been very 
effective in limiting their capacity to look for financing in 
traditional ways. And so we have Simon Zerpa camping out in 
Beijing for 2 weeks trying to solve that problem.
    Ms. Kelly. I have used up all my time.
    Mr. Sires. You have----
    Ms. Kelly. I yield back the balance of my time.
    Mr. Duncan. She yields back.
    So the Chair will go to Mr. Yoho from Florida.
    Mr. Yoho. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here.
    I hail from Florida, so we are very, very concerned with 
this. We have got--in my past life as a veterinarian--I will 
always be a veterinarian--and I had several clients from 
Venezuela, and we have been following this, and it has only 
deteriorated in this first half of the century.
    And it is very disturbing to see what is going on there, 
from the breakdown of the rule of law, the Communist state that 
is developing, the dictatorship. The liberties that they had 
are gone. They are already usurping the property and taking the 
personal property. And I agree with Mr. Sires that this is the 
prelude of what Cuba did with the Castro regime.
    There are so many different avenues that I am concerned 
with. You know, the terrorist networks that are developing 
there from the Middle East, the Chinese influence, the national 
security--these all tie into national security, but what I see 
with the CITGO deal that was made with the loan--and I want to 
touch on that just briefly--if Venezuela defaults, CITGO has 
three oil refineries here, nine pipelines, and 50 petroleum 
platforms. Are we to believe that if they were to default, 
Russia takes that over in this area? Is that something that we 
would anticipate? Or China, if China were to--if they were to 
default to China?
    Dr. Ellis?
    Mr. Ellis. Yes. Well, first of all, my understanding is 
there is a pending CFIUS review.
    Mr. Yoho. Right.
    Mr. Ellis. And I think, you know, heavy attention to that 
would be merited to potentially blocking that, and I think 
there are strong grounds for blocking the takeover by Rosneft 
of those assets. And I think--my understanding is that out of 
concern for that potential blockage, Rosneft is actually 
working right now to switch out those assets for broader assets 
in Venezuela.
    Mr. Yoho. Okay. You know, and we have had personal contacts 
with people that used to work for the Venezuelan generals that 
were working with our Government through different agencies, I 
won't mention them, that have firsthand information that the 
Vice President Asami, when he was a Foreign Minister, was 
printing Venezuelan official passports for ISIS and Hezbollah 
members that were entering our country.
    And to me, this is just a very severe national security 
risk. And I look back at the words of John Kerry when he said 
the Monroe Doctrine was outdated and not needed. I think we 
need to bolster it and really put an influence and, you know, 
make sure we secure the Caribbean base in South America with 
our policies.
    And let's see. The corruption scandals. I mean, they are 
widespread down there. And you brought up, there are over--Mr. 
Toro, over 1,000 MANPADS that have gone missing. Is that--did I 
hear that correctly?
    Mr. Toro. No, no. Let me restate. There are 5,900 Russian 
MANPADS, is the latest information I have, they are under the 
control of the Venezuelan army. The question is what happens--
there is a plan now to shift about 1,000 of them to the 
Bolivarian militia where they will not be as well safeguarded. 
And we know that there are contacts between illicit groups, 
drug trafficking groups, Colombian groups, groups that have 
expertise shipping drugs from the northern coast of South 
America to the United States. If you want to hide a MANPADS 
system, they want to send it to the United States, just hide it 
under a sack of cocaine. You can do that. So this hasn't 
happened----
    Mr. Yoho. Yes. That is not comforting.
    Mr. Toro. It is not comforting. It is deeply concerning, 
because it is--it is not just that there are these external 
actors that are very worrying, it is a way they can overlap and 
interact. If you have the drug trafficking route, because you 
set it up for illicit narcotics, what else can you put on that?
    Mr. Yoho. Mr. Chairman, I have got one more question. Do I 
have time? I don't have a timer in front of me.
    What we have heard is that the Maduro regime, and even 
Chavez, had the Cuban soldiers around him because he felt they 
were more loyal to them, because they are a student of 
Castro's. Do we still find that today? Is the Cuban militia 
that is around him and the military around him, are they more 
loyal and protective of Maduro than the Venezuelan generals? 
What are your opinions on that?
    Mr. Ellis. I have heard similar things. And, you know, to 
some degree, that may be the case, and it depends on which 
specific loyalists. One of the difficult issues with many of 
those, especially the Venezuelan national guard generals, is 
they have become so deeply entwined in narcotrafficking and 
other profiteering from the regime's economic, you know, 
policies that, you know, their fate in many ways is actually 
tied to Maduro's, although they are looking for transition to a 
more rational management.
    There is also some speculation, though, whether some, for 
example, the Avispas Negras, the elite Cuban guard, are they 
actually guarding Maduro, or are they actually guarding their 
own, you know, Cuban personnel from the Venezuelans? So that is 
a little bit of concern.
    Mr. Yoho. All right. I yield back.
    Thank you, sir.
    Mr. Duncan. I thank the gentleman.
    The Chair will now go to Mr. Espaillat from New York.
    Mr. Espaillat. Thank you, Mr. Chairman.
    I guess, how many Cubans are there? How many Cuban 
operatives are there right now in Venezuela? Do you have an 
approximate number?
    Mr. Trinkunas. Congressman Espaillat, that is a very good 
question. The assessment was in 2012 there was about 40,000. 
However, at that time, Cuba-Venezuela trade was about $7.5 
billion, more or less. Trade has dropped to about $2.2 billion. 
And a lot of those personnel were being paid for by Venezuela 
through subsidized oil. So those personnel, some likely have 
been withdrawn just because Venezuela is not paying anymore. In 
fact, there was a 8-month oil moratorium last year and early 
this year, that is--Venezuela started shipping oil at a reduced 
rate. But if those personnel are not in Venezuela, they have 
likely been redeployed to the Middle East or Africa or 
elsewhere in Latin America, because that is how--one of the 
ways that Cuba earns money is through providing those 
personnel.
    Mr. Espaillat. And during the--is there a sign that there 
is a crack in the wall, if you may, in the military, are there 
any solid noncorrupt military professionals that are showing 
signs of potentially objecting to Maduroand his ways?
    Mr. Trinkunas. Let me just briefly say that there is--the 
senior leadership is selected for ideological loyalty, and also 
as Dr. Ellis and I am sure Mr. Toro agree, there is the issue 
of connections to drug trafficking among the Guardia Nacional. 
The junior officers are heavily ideologized at the national 
Bolivarian Military University. It is those middle ranks that 
have not been completely captured by the revolution, and that 
is where you see this occasional small uprising, the 
helicopter, the raid on the base. It is that set of officers 
that, I think, are sort of most open to all these, but they are 
being watched.
    Mr. Toro. I think it--well, about 4 months ago, there was a 
video--or 6 months ago, there was a video that, with little 
notice outside the Venezuelan military, that showed a couple of 
soldiers outside the main army base in Maracay rummaging 
through sacks of garbage looking for food. Okay?
    The video was not very much noticed outside the military, 
but inside the military where everyone has WhatsApp, because 
they are South Americans, it went viral. Everybody inside the 
military saw it. And there was a moment when people in 
different units inside the military realized, wow, it is not 
just in this unit where we don't have quite enough to eat.
    For middle-ranking officers, keeping morale and 
preparedness and just basic discipline in a situation where you 
can't always feed your troops is very difficult. And for the 
army, again, trying to secure weapon systems when the troops 
are hungry is, again, very difficult. So some of the people, I 
don't doubt--I don't know if you can find very many people who 
are not at all corrupt inside the Venezuelan military, but what 
you can find is many officers who find that the current 
government setup is unsustainable and find it difficult to 
understand why they should try to continue to sustain it.
    Mr. Espaillat. My last question is, I am kind of losing a 
little hope on the sanctions positions, because as just stated 
here, China has been substantially present there and may look 
to bail them out. And, in fact, if we sanction them, that 
provide them--provides them with a platform to then go out 
there and demonize the U.S., and then here comes China and 
bails them out. So is there any way that we can--what is the 
objection to not buying their oil, for example? That is a 
significant part of their economy.
    And second, the second question is, what can we do about 
the international--the smaller countries that have benefited 
from petro [off mic] that seems to be bailing them out in the 
international community both at the Organization of American 
States as well as the United Nations?
    Mr. Ellis. Congressman Espaillat, that is a great question. 
I strongly believe that we are in a moment where sanctions can 
make a difference, but only if done right and coordinated with 
an effective strategic communications, not only to Venezuela, 
but also to Russia and China.
    First of all, I believe that it is actually important that 
we do sanctions in a relatively quick fashion. I believe that 
what you said is absolutely on track, that we need to move 
forward with sanctions that cut off Venezuela's oil flow. 
Although that will damage U.S. industrial interests, I believe 
that in some ways that not only doing so shows that we do not 
have a, you know, moral ambiguity in the game, but it also 
accelerates the rate at which you force a crisis to the regime.
    And, frankly, we also need to signal strongly to China, 
because China watches this with one eye in the relationship 
with the United States. And if they believe that we see this as 
a strategic play on their part, they may or may not be willing 
to put in that cash. They have been very cautious about that.
    I believe also that we do need, as you pointed out--and, of 
course, Dominican Republic, as you know that--and I was just 
actually in Santo Domingo just a couple of weeks ago right 
after your visit, sir, the committee's visit, and was struck by 
the number of Venezuelans that you see. And so you have this 
ironic situation in which friendly governments continue to go 
along with the Venezuelan regime, while at the same time they 
are suffering from the crisis that is created by the Maduro 
regime. I think we need to manage that diplomacy carefully 
through a bit of--you know, through a bit of tough love, if you 
will.
    Mr. Duncan. We have time for another round if members would 
like.
    I would like to just raise a point. So under Chavez we saw 
the Air Caracas flights, Caracas to Tehran, stopping in Beirut. 
And Beirut is the lead country for Hezbollah. I mean, Party of 
God, Iranian proxy.
    How much activity is Hezbollah conducting in Venezuela? Is 
there still as much Iranian influence as there was under Chavez 
with Maduro? And are we aware whether the Air Caracas Tehran 
flights are still going on?
    Dr. Ellis.
    Mr. Ellis. Chairman, that is a wonderful question. And I 
believe there are two dimensions to this, the Iranian and the 
Islamic extremists. And they are overlapping but somewhat 
separate. Certainly, with the shift from----
    Mr. Duncan. Some of us think they are one in the same.
    Mr. Ellis. Yes. They are certainly reinforcing. And 
certainly with the change in style in Iran from President 
Ahmadinejad to President Rouhani, what you see is at least a 
low profile.
    But I believe that Iran's strategy in the region is 
fundamentally the same. They are continuing to recruit 
personnel for the Iranian madrassas from places like Venezuela. 
They are continuing to introduce Quds Forces into the region, 
although at a somewhat lower level. They are continuing to 
work, many of us believe, on missile proliferation.
    And one of the concerns is--and I think you have already 
seen it--with President Rouhani's reelection in Iran, and the 
freeing up of $150 billion in resources, and indeed the meeting 
with Maduro just a short time ago, I think you are beginning to 
see a renewed willingness of Iran to drop a little bit of the 
caution that it had previously adopted when it was negotiating 
the end of the sanctions regime.
    Related to that, clearly, I am very concerned not only 
about Hezbollah, but other Islamic radicals. As you rightfully 
pointed out, Tareck El Aissami, the Vice President, is one of 
the key people not only in terms of the religious activity, but 
also with the criminal radicalization.
    Hezbollah, both in Syria and Lebanon, but also in Latin 
America, is a major drug-dealing and money-laundering 
organization with ties in Colombia, Venezuela, elsewhere, that 
is reinforced and plays with Iran, but also has their own 
criminal agenda, which really leads to the growth of illicit 
networks which fundamentally undermine and threaten the United 
States.
    So I am glad that you brought that up, sir, because that 
emphasis has received probably less attention than it should 
recently, the role that is being played.
    Mr. Duncan. That has been an issue with me, the Iranians' 
activity in the Western Hemisphere, not just Venezuela. We are 
not going to take our eye off the ball with the things you 
mention and what Iran, Quds' Force, their proxy, Hezbollah, are 
doing here closer to home.
    Last question. India, they are buying a lot of oil, I 
understand. Are they propping up the Maduro government? Is it 
anything we ought to be looking into?
    Mr. Trinkunas, that is fine. Yeah.
    Mr. Trinkunas. I was just going to make a brief point, that 
I think India is an interesting signal of the change that you 
are seeing, I think, in the Iranian relationship. When Iran 
reentered global oil markets after sanctions were lifted under 
JCPOA, a competitive dimension was introduced into the Iran-
Venezuela relationship because they are competing for markets. 
And, in fact, India was traditionally an Iranian market that 
would later on become a Venezuelan market.
    So we shouldn't ignore the fact that there is a new 
dimension to the Iran-Venezuela relationship where Iran is 
competing for markets after being locked out for so long.
    Mr. Ellis. Sir, India is a wonderful point. Thank you for 
bringing it up. And it is interesting because even though 
India's orientation toward the region, including under Prime 
Minister Modi, has been relatively apolitical, it is 
interesting that until the Jieyang refinery comes on in 
Guangdong, in China, really it is the Reliance Refinery in 
India that has one of the few capabilities in the world to 
bring on and process Iranian heavy oil coming out of the 
Orinoco Tar Belt.
    It is also of interest that actually Rosneft has a play, 
the Russian company, to actually buy a stake in that. And some 
of us believe that part of Igor Sechin's play is to actually 
refine Venezuelan oil in India.
    But India, to the extent of which--there is probably as 
much of an impact on Indian potential sanctions and cooperation 
as there is from U.S. sanction. And so to the degree to which 
India is willing to cooperate with us toward the Venezuelan 
regime, that would bring a big deal of help in bringing 
pressure on the Venezuelan regime.
    Mr. Duncan. Thank you, gentlemen.
    I said earlier Iran and Islamic extremism were one and the 
same. Maybe not one and the same, but not mutually exclusive, I 
guess is what I meant by that.
    Any other members have any followup questions?
    Mr. Yoho.
    Mr. Yoho. Thank you again.
    What is your recommendation with Goldman Sachs, who bought 
$2.8 billion in bonds? Is that something that we should 
discourage from American financial institutions, bailing out a 
country that suspends or gets rid of their Constitution? 
Thoughts?
    Mr. Toro. I think the latest--well, the first round of 
financial sanctions is narrowly constructed to prevent that 
from happening again. It is unfortunate that it happened once. 
But as I understand it, sanctions will not allow that to happen 
again.
    Mr. Yoho. Okay.
    Mr. Trinkunas. Congressman Yoho, I think that is a very 
interesting point, because I think you highlight a mechanism by 
which you discourage financial institutions in the future of 
taking the risk of dealing with the Venezuelan Government. You 
don't have to prevent very many of these actions to discourage 
many of them.
    Mr. Yoho. Make an example out of them. I am a firm believer 
in that.
    One last thing, and I don't know if you touched on this. 
Again, with the Citgo operations in the United States, and with 
the Venezuelan Government suspending or changing their 
Constitution, which I feel is through an illegitimate election 
and process, would you sanction those companies, the Citgo 
companies here, and prevent them from processing Venezuelan 
crude and replacing it with U.S.? And I know you said it would 
disrupt our system, but I think we could probably fill that 
fairly quickly.
    Mr. Toro. I am a Venezuelan national. I have family and 
employees and friends there. I cannot support any such move.
    And I think it is important to understand clearly the 
mechanism through which stopping Venezuela from selling oil to 
the United States is supposed to create pressure. I mean, this 
is a hunger strategy. This is let us starve out the Venezuelan 
population, let us put a hard stop to food and medicine imports 
into Venezuela, and then they will overthrow the government. I 
don't think that is a viable or defensible strategy.
    Mr. Yoho. Dr. Ellis.
    Mr. Ellis. Frankly, I wrestled with a lot of this in my own 
testimony, because, obviously, we don't want to do anything 
that hurts either U.S. companies or the Venezuelan people, 
because at the end of the day our interests are in the well-
being of the Venezuelan people.
    My two concerns is that a go-slow strategy of individual 
sanctions, while certainly sending messages, prolong the rate 
at which you have the suffering of the Venezuelan people while 
giving Russia and China the opportunity to incrementally bail 
out and advance their position more and more and more.
    Whereas, the faster that we do sanctions, although 
immediately painful, it creates a situation in which Russia and 
China do not have the time nor the scope for being able to bail 
it out. And, frankly, it sends a very strong message not only 
to companies like Goldman Sachs, but companies such as Citgo as 
well.
    Mr. Yoho. Thank you.
    Mr. Duncan. I thank the gentleman.
    Before we end up, hurricanes have affected a lot of our 
members on this subcommittee and their districts. So our 
prayers are out to the State of Florida and Texas. And also to 
the Caribbean, which we have jurisdiction over, has experienced 
a lot of damage from the hurricanes. So our prayers are with 
them, as well.
    Pursuant to Committee Rule 7, the members of the 
subcommittee will be permitted to submit written statements to 
be included in the official record.
    Without objection, the hearing record will remain open for 
5 days to allow statements, questions, extraneous materials for 
the record, subject to the length limitation in the rules.
    There being no further business, the subcommittee will 
stand adjourned.
    [Whereupon, at 3:17 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
         
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         
    
                                 [all]
</pre></body></html>
